           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE INDICATOR AUDIT:
          PRODUCTIVITY

  November 2004    A-15-04-14073




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                  SOCIAL SECURITY

MEMORANDUM

Date:   November 17, 2004                                                Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: Productivity (A-15-04-14073)



        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the
        Social Security Administration’s performance indicators established to comply
        with the Government Performance and Results Act. Attached is the final report
        that presents the results of three of the performance indicators PwC reviewed.
        For each performance indicator included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes
               for the specific performance indicator;
           •   Assess the overall adequacy, accuracy, reasonableness, completeness,
               and consistency of the performance indicator and supporting data; and
           •   Determine if each performance indicator provides meaningful
               measurement of the program and the achievement of its stated objectives.
           •
        This report contains the results of the audit for the following indicators:
           •   Percent Improvement in Agency Productivity,
           •   Supplemental Security Income Aged Claims Processed per Workyear,
               and
           •   Disability Determination Service Cases Processed per Workyear.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
MEMORANDUM

Date:    November 9, 2004

To:      Acting Inspector General

From:    PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Productivity (A-15-04-14073)

The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

To enhance the practical use of performance information, the Office of Management
and Budget (OMB), in collaboration with other Federal agencies, developed the
Program Assessment Rating Tool (PART), which is comprised of assessment criteria on
program performance and management. The PART establishes a high, "good
government" standard of performance and is used to rate programs in an open, public
fashion.4 Two of the indicators included in this audit report, Supplemental Security
Income (SSI) Aged Claims Processed per Workyear (PPWY) and Disability
Determination Service (DDS) Cases PPWY, are PART measures.

OBJECTIVE

For each performance indicator included in this audit, our objectives were to:

1. Test critical controls over the data generation and calculation processes for the
   specific performance indicator.
2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
   consistency of the performance indicator and supporting data.
3. Determine if each performance indicator provides meaningful measurement of the
   program and the achievement of its stated objectives.




1
  Pub. L. No. 103-62, 107 Stat. 285.
2
  31 United States Code (U.S.C.) § 1115(a)(4).
3
  31 U.S.C. § 1115(a)(6).
4
  http://www.whitehouse.gov/omb/budintegration/part_assessing2004.html.


Performance Indicator Audit: Productivity (A-15-04-14073)                              1
We audited the following performance indicators as stated in the SSA
Fiscal Year (FY) 2003 Performance and Accountability Report (PAR):

    Performance Indicator                    FY 2003 Goal          FY 2003 Reported Results
    Percent Improvement in
                                                     2%                      2.1%
    Agency Productivity
    SSI Aged Claims PPWY                        497                           556
    DDS Cases PPWY                     264 cases per workyear       270.4 cases per workyear

BACKGROUND

SSA’s performance indicators of Percent Improvement in Agency Productivity, SSI
Aged Claims PPWY, and DDS Cases PPWY aim to measure agency productivity.
Productivity is the measure of the efficiency with which available resources are used to
produce necessary products and services. It is the amount of work that is processed by
an organization or an organizational entity using a specified amount of workpower.
Workpower is a measure of labor time provided by all employees to support the work of
the Agency. Productivity is normally expressed as an index comparing the value of
output (e.g. claims, hearings, appeals, change of addresses) over the value of input
(usually expressed in labor units, costs, or workyear) in 1 period (the base period) to the
comparable ratio for a second, usually later period.

SSA’s input for all of the indicators above is expressed as workyears. SSA defines a
workyear as the measure of workpower equivalent to 1 FY of paid labor time provided
by an SSA employee to support the work of the Agency and the programs that it
administers (including paid non-duty time such as leave).5 For simplification and
consistency among fiscal periods, an SSA workyear is generally defined as
2,080 straight-time hours or their equivalent.6

The percent improvement in Agency productivity aims to measure entity--or
agency-wide productivity. The SSI aged claims PPWY aims to measure the adequacy
of the agency resource allocation for this vulnerable population. DDS Cases PPWY
directly evaluates the DDS productivity in the disability process.




5
    SSA’s Intranet. http://eis.ba.ssa.gov/ofpo/mcas/MCAS_Glossary.html.
6
    Ibid.


Performance Indicator Audit: Productivity (A-15-04-14073)                                      2
RESULTS OF REVIEW

Percent Improvement in Agency Productivity

         FY 2003 Goal: 2%

         Actual FY 2003 Performance: 2.1%

         SSA met its goal.7

Indicator Background

As one of the largest, most workload-intensive agencies in government, SSA has been
reporting the productivity of its employees for over 30 years. SSA measures
productivity solely in terms of its program mission workloads, of which SSI aged claims
processed are a part.

The Percent Improvement in Agency Productivity indicator is developed by the Division
of Cost Analysis (DCA) under the Deputy Commissioner for Finance, Assessment and
Management. DCA is responsible for managing SSA’s Cost Analysis System (CAS).
CAS provides a wide range of management information and analysis on the Agency’s
administrative costs, workloads, labor utilization and productivity.

The percent change in productivity is measured by comparing the total number of SSA
and DDS workyears that would have been expended to process current year workloads
at the prior year’s rates of production to the actual SSA and DDS workyears expended.8

The workyear number is composed of paid workyear information obtained for all SSA’s
components from the Payroll Operational Data Storage (PAYODS) system through
pre-scripted queries and from the data files sent by the DDSs. The component
workload information is obtained from various SSA sub-systems, including the
Processing Center Action Control System (PCACS), Earnings and Recording
Maintenance System, Disability Operational Data Store (DIODS) system, Hearing Office
Tracking System (HOTS), and Supplemental Security Income Records Maintenance
System (SSIRMS).

The workload and workyear components are compiled by analysts in DCA and
uploaded into the Pre-Input Cost Analysis (PICA) system before input into CAS. Once
in PICA they are reviewed for reasonableness. After the information is input into CAS,
the SC3 Sum9 report is generated from CAS, which includes the consolidated

7
  Social Security Administration Performance and Accountability Report Fiscal Year 2003, page 85.
8
  Ibid.
9
  The report provides a top-down overview of each component organization’s workyears, payroll costs,
other objects costs, total costs, and unit cost contributions to each of SSA’s end-product workloads.


Performance Indicator Audit: Productivity (A-15-04-14073)                                               3
information for workload and workyears for the period. The information on the SC3
Sum report is then manually input into the Excel productivity worksheet for comparison
to the base year. (Refer to Appendix C for an overview of the process.)

Findings

We were unable to determine the reliability of the information reported within the PAR
because SSA could not produce documentation providing a full audit trail of the
information, processes and programs used to perform the productivity calculation for the
performance indicator.

The SSA productivity performance indicator calculation uses data from the
55 established SSA-level workloads. The initial component data is obtained from
numerous system files and reports with some limited manual processes. Component
level workyears and counts for end-products are compiled to generate the Agency level
workloads, which are used in the calculation of this indicator.

SSA management provided limited documentation including: reports used at various
stages of the process to create the indicator; some of the processes performed in the
CAS system; and information pertaining to the source of some of the data used in the
calculation. However, the following documentation was not available for all
55 workloads and therefore SSA was unable to provide a complete audit trail for the
recalculation and verification of the indicator:

   A complete description and identification of the exact processes and computer
    programs used to obtain data from the source system files.
   Clear identification of the exact system files and fields used to obtain initial source
    data.
   A complete description and identification of the computer programs and interim
    calculations used to selectively combine, delete or alter original data, extracted from
    source system files, during each stage of the data refinement process.
   A copy of the original source data extractions used in the calculation process to
    provide an audit trail for recalculation of the performance indicator.

Our audit also found that the calculation of the performance indicator does not include
time spent by contractors, which impacts the overall meaningfulness of this indicator.
The use of contractors varies from process to process, and contractor workyears may
represent a significant input into SSA and DDS processes in some States.

SSA does not have an annual review process in place to ensure that relevant workloads
are used in the calculation. This would ensure that the workloads included remain
relevant and fully representative of SSA’s priorities and actions and that the calculation
reflects SSA’s priorities and actions.




Performance Indicator Audit: Productivity (A-15-04-14073)                                4
SSI Aged Claims Processed Per Workyear

         FY 2003 Goal: 497

         Actual FY 2003 Performance: 556

         SSA met its goal.10

Indicator Background

The main objective of the SSI program is to provide the basic cash support of needy
aged, blind, and/or disabled individuals.11 The SSI aged program is a means based
program intended to supplement the income of aged individuals. The SSI aged claims
PPWY aims to measure the adequacy of the Agency resource allocation for this
vulnerable population.

DCA is also responsible for calculating the SSI aged claims PPWY performance
indicator. Similar to the percent improvement in agency productivity indicator,
DCA utilizes CAS to calculate the SSI cases processed per workyear indicator.

The SSI aged claims processed per workyear is calculated as follows:

     SSI Aged Claims Processed                  = SSI aged cases completed by field offices
     Workyears expended by Field                  Direct and Indirect time, including overhead (time
       Offices on this workload                 =   spent on training, travel, leave, holidays, etc.)

The workyear number is composed of payroll information obtained for all SSA’s
components from the PAYODS system through pre-scripted queries. The number of
SSI aged claims processed, also known as the workload, is obtained from various
sources, including SSIRMS.

The workload and workyear components are compiled by analysts in DCA and
uploaded into the PICA system before input into CAS. Once in PICA they are reviewed
for reasonableness. After the information is input into CAS, the C2-15A12 Report is
produced from CAS. The C2-15A Report includes the SSI aged claims PPWY figure.




10
   Ibid, page 93.
11
   Annual Report of the Supplemental Security Income Program-Social Security Administration May 2004
page 2.
12
   The report provides cumulative monthly processed counts, workyears, payroll obligations and other
object costs, unit costs, cost per workyear and production rates by direct workload, program activity and
organization for SSA components. Provides separately staff workyears and cost expenditures and
associated other objects costs by staff function.


Performance Indicator Audit: Productivity (A-15-04-14073)                                             5
Findings

We found the indicator to be meaningful. However, we were unable to determine the
reliability of the information reported within the PAR because SSA could not readily
produce documentation providing a full audit trail of the information, processes and
programs used to perform the calculation of the SSI aged claims processed indicator.

SSA management provided limited documentation including reports used at various
stages of the process to create the indicator and information pertaining to the source of
some of the data used in the calculation. However, the following documentation was
not available to provide a complete audit trail allowing full recalculation and verification
of the indicator:

     A complete description and identification of the exact processes and computer
      programs used to obtain data from the source system files.
     Clear identification of the exact system files and fields used to obtain initial source
      data.
     A complete description and identification of the computer programs and interim
      calculations used to selectively combine, delete or alter original data, extracted from
      source system files, during each stage of the data refinement process.
     A copy of the original source data extractions used in the calculation process to
      provide an audit trail for recalculation of the performance indicator.

Disability Determination Service Cases Processed Per Workyear

           FY 2003 Goal: 264 cases per workyear

           Actual FY 2003 Performance: 270.4 cases per workyear

           SSA met its goal.13

Indicator Background

SSA’s Office of Field Disability Operations (OFDO) is responsible for the budget
formulation and execution for the DDSs. OFDO monitors the DDS’ performance,
productivity, accuracy and processing time.

OFDO calculates the DDS Cases PPWY indicator by generating the DDSs Staffing and
Workloads Analysis Report and FD-15 report by using the DIODS system. DIODS is a
relational database located at SSA Central office that captures and stores detailed data
about DDS workloads.




13
     Ibid, page 49.


Performance Indicator Audit: Productivity (A-15-04-14073)                                  6
FD-15 Report

The FD-15 report is a fiscal Year-to-Date (YTD) cumulative report. It shows the counts
for projected initial case receipts YTD supplied by the Office of Disability, as well as
actual DDS initial case receipts, cases disposed of, and pending cases. It also shows
actual workyears (WY) used YTD and an annualized rate of WYs used. It displays
full-time, part-time, overtime and total full-time equivalent positions for each week, as
well as cumulative full-time and examiner additions, losses, and attrition rate. Finally it
displays productivity per workyear for current week, rolling 4 weeks, quarter, cumulative,
and adjusted cumulative.

DDS cases processed per workyear is calculated in the FD-15 reports as follows:

      DDS Cases Processed                       =           Cases disposed of by DDSs
                                                     Direct and Indirect time, including overhead (time
 Workyears expended by DDSs                     =      spent on training, travel, leave, holidays, etc.)

Information regarding cumulative dispositions by the DDSs is obtained via an interface
between the National Disability Determinations Service System (NDDSS) and the
DIODS system. The NDDSS is used by the DDSs to input case status information and
transmit the information to SSA.

Information regarding workyears is obtained directly from the DDSs. DDSs are required
to input on a weekly basis personnel information related to both direct and indirect time
expended for all work in DIODS. (Refer to Appendix C for an overview of the process.)
To ensure the accuracy of hours charged to SSA by DDSs is accurate, DDS directors
must certify on a quarterly basis hours expended by DDS employees and contractors.

Findings

Improvements could be made regarding documentation, calculation and controls
surrounding the underlying data of the performance indicator. We found that SSA had
not documented policies and procedures related to the formal process used to collect,
review and provide the performance indicator data.

We also found that there are no formal procedures in place to ensure that reviews of the
FD-15 reports were performed in a timely manner. We understand that management
was involved in the review only if anomalies were identified.

We reviewed a sample of 45 DDS quarterly certifications and found that the controls in
place to ensure the accuracy of the DDS hours expended were not working as intended.
We found that eight of the certification reports did not include a valid/authorizing
signature. SSA Central Office and the Regional Office require a signature from the
DDS Administrator or the DDS Fiscal Auditor for the certification.



Performance Indicator Audit: Productivity (A-15-04-14073)                                           7
A formal log of errors and corrective actions taken was not maintained for: 1) output
product errors relating to the generation of the FD-15 report; and 2) errors found as part
of the review by SSA of the quarterly certification of hours expended by the DDSs. The
lack of a formal log diminishes SSA’s ability to monitor and minimize errors in
calculating the performance indicator.

Our review also revealed that the calculation of this indicator did not include time spent
by contractors. An adjusted PPWY, which includes time spent by contractors, is
calculated and reported internally, however; the results are not externally reported.
The use of contractors varies from State to State. The contractors’ workyears may be a
significant input into the DDS process in some States. Depending on the extent of the
use of contractors, the meaningfulness of this indicator may be significantly impacted by
excluding contractors’ time in the calculation.

The PAR narrative states that there has been a “steady increase in the cases
processed per workyear”14 but the goal for FY 2003 represented a decline relative to the
FY 2002 performance. The narrative additionally explains that the workyear calculation
“is inclusive of everyone on the DDS payroll plus doctors under contract to the DDS.”15
However, we found that not all contractor hours are included in the calculation. This is
misleading.

RECOMMENDATIONS
We recommend SSA:

1. Improve documentation by maintaining documents that describe how the
   performance indicator goals were established, documenting the policies and
   procedures used to prepare and disclose the results of the performance indicators,
   and maintaining a complete audit trail for the results of the performance indicators.
2. Ensure that the performance indicator titles, definitions, and goals are explicit,
   complete, and consistent.

Specific to the performance indicators, “Percent Improvement in Agency Productivity”
and “SSI Aged Claims Processed Per Workyear,” we recommend SSA:

3. Establish formal written documentation for the performance indicator that includes a
   complete description and identification of the exact processes and computer
   programs used to obtain data from the source system files for all 55 workloads.
4. Establish formal written documentation for the performance indicator that includes a
   clear identification of the exact system files and fields used to obtain the initial
   source data for each workload.
5. Establish formal written documentation for the performance indicator that includes a
   complete description and identification of the computer programs and interim

14
     Ibid, page 49.
15
     Ibid, page 49.


Performance Indicator Audit: Productivity (A-15-04-14073)                              8
    calculations used to selectively combine, delete or alter original data extracted from
    source system files during each stage of the data refinement process.
 6. Establish formal written documentation for the performance indicator that includes a
    requirement to maintain an exact copy of the original source data extracted for each
    of the 55 workloads.

 Specific to the performance indicator, “Percent Improvement in Agency Productivity,” we
 recommend SSA:

 7. Review on a yearly basis workloads included in the calculation to ensure they reflect
    SSA’s priorities and actions.

 Specific to the performance indicator, “Disability Determination Services Cases
 Processed per Workyear” we recommend SSA:

 8. Implement formal procedures to ensure that reviews of the FD-15 reports are
    performed in a timely manner.
 9. Ensure that the Forms 4514 are certified by DDS personnel with the appropriate
    level of authority.
10. Ensure that a formal log of errors and corrective actions taken is maintained for
    output product errors relating to the generation of the FD-15 report, and errors found
    as part of the review by SSA of the quarterly certification of hours expended by the
    DDS. The log should contain the date, error, and corrective action taken in a
    detailed form.

 AGENCY COMMENTS
 SSA agreed with the recommendations in our report. However, for recommendations
 3, 4, and 5, the Agency stated it does not have the systems resources to implement
 them at this time.




 Performance Indicator Audit: Productivity (A-15-04-14073)                              9
                                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Productivity (A-15-04-14073)
                                                                       Appendix A
Acronyms
CAS               Cost Analysis System
DCA               Division of Cost Analysis
DDS               Disability Determination Services
DIODS             Disability Operational Data Store
FDDS              Federal Disability Determination Services
FY                Fiscal Year
GPRA              Government Performance and Results Act
HOTS              Hearing Office Tracking System
NDDSS             National Disability Determination Services System
ODIO              Office of Disability and International Operations
OEO               Office of Executive Operations
OFDO              Office of Field Disability Operations
OHA               Office of Hearings and Appeals
OMB               Office of Management and Budget
PAR               Performance and Accountability Report
PART              Performance Assessment Rating Tool
PAYODS            Payroll Operational Data Storage
PCACS             Processing Center Action Control System
PI                Performance Indicator
PICA              Pre-Input Cost Analysis
PPWY              Processed per Work Year
P/R ODS           Payroll Operational Data Store
PSC               Program Service Center
Pub. L. No.       Public Law Number
PwC               PricewaterhouseCoopers LLP
SSA               Social Security Administration
SSAMIS            Social Security Administration Management Information System
SSI               Supplemental Security Income
SSIRMS            Supplemental Security Income Records Maintenance System
U.S.C.            United States Code
WY                Workyear
YTD               Year-to-Date




Performance Indicator Audit: Productivity (A-15-04-14073)
                                                                        Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing including testing of source
documentation, we performed the following as applicable:

    •    Reviewed prior SSA, Government Accountability Office, and other reports related
         to SSA’s GPRA performance and related information systems.
    •    Met with the appropriate SSA personnel to confirm our understanding of each
         individual performance indicator.
    •    Flowcharted the processes (see Appendix C).
    •    Where applicable, we tested key controls related to manual or basic
         computerized processes (e.g., spreadsheets, databases, etc.).
    •    Conducted and evaluated tests of the automated and manual controls within and
         surrounding each of the critical applications to determine whether the tested
         controls were adequate to provide and maintain reliable data to be used when
         measuring the specific indicator.
    •    Identified and extracted data elements from relevant systems and obtained
         source documents for detailed testing selections and analysis.
    •    Identified attributes, rules, and assumptions for each defined data element or
         source document.
    •    Tested the adequacy, accuracy, reasonableness, consistency, and completeness
         of the selection.
    •    Recalculated the metric or algorithm of key performance indicators to ensure
         mathematical accuracy.
    •    For those indicators with results that SSA determined using computerized data,
         we assessed the completeness and accuracy of that data to determine the data's
         reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards.


Performance Indicator Audit: Productivity (A-15-04-14073)                             B-1
In addition to the steps above, we specifically performed the following to test the
indicators included in this report:

PERCENT IMPROVEMENT IN AGENCY PRODUCTIVITY

    •    Tested the effectiveness of SSA’s payroll and time attendance controls by
         selecting a sample of 45 payroll employee records to test the accuracy of the
         workyear information.
    •    Reviewed the controls over the reporting of hours worked by the Disability
         Determination Services (DDS).
    •    Tested the controls in place to ensure the appropriateness of the monthly
         SC3 Sum reports.

SSI AGED CLAIMS PROCESSED PER WORKYEAR (PPWY)

    •    Reviewed the controls surrounding the generation of the C2-15A report.


DISABILITY DETERMINATION SERVICE CASES PPWY

    •    Reviewed the controls surrounding the DDS quarterly payroll certification
         process.
    •    Tested the accuracy of the workload information in Disability Operational Data
         Store (DIODS) by selecting 45 Disability Quality Assurance cases and ensuring
         that the disposition information in the files agreed to the information in DIODS.
    •    Tested the controls and accuracy of the FD-15 reports.




Performance Indicator Audit: Productivity (A-15-04-14073)                                B-2
                                                                                               Appendix C
Flowchart of Percent Improvement in Agency
Productivity



           Control WYs                                          Workload
                                                                 Counts


          DCA Analyst
          Extract P/R                                         DDS, FDDS & OHA
           ODS data                                           Workload counts
                                                                                                        DCA Analyst
                                                                                                          Extract
                                                             Field Office,                               Workload
                                                             New SSAMIS                                   Counts
         Calculate Agency
     Control WYs by Component                                Workload counts

                                                              OEO, PSC, ODIO
                                                              Workload counts
             Is data               No
         Reasonable and
           Accurate?                                                              No                   Is data
                                                                                                   Reasonable and
                    Yes                                     Investigate/Resolve
                                                                                                     Accurate?

                                                                                                       Yes
        Approve and distribute
        to DCA analyst




       DCA analyst perform split
       by category and workload                     Feeder CAS
                                        To Feeder
                                                                                       To Feeder CAS
                                          CAS




                                                     A          B




Performance Indicator Audit: Productivity (A-15-04-14073)                                                             C-1
                                                            Is Data                No
              A                                             Reasonable                                 B
                                                            And Accurate?         To DCA Analyst
                                                                                  For Resolution
          Feeder CAS
                                                                     Yes


                                                        Create PICA




                                                No
                                                        Is data reasonable
                                   To DCA Analyst          and accurate?
                                   For Resolution




                                                                  Yes


                                                        Upload to CAS                              D




                                                             Run CAS




                                                         Generate reports &
                                                      distribute to DCA analyst




                                                                 C




Performance Indicator Audit: Productivity (A-15-04-14073)                                                  C-2
                                                                                               No
              C                                                    Is data reasonable                             D
                                                                    and accurate?            To DCA Analyst
                                                                                             For Resolution
     Generate Reports &
     Distribute to DCA Analysts
                                                                              Yes


                                                              Data extracted from CAS,
                                                              Input to productivity excel file
                                  Investigate/
                                  Resolve


                                                      No
                                                                 Is data reasonable
                                                                    and accurate?

                                                                             Yes


                                                           Distribute to Division Director
                                                                    for approval
                              Investigate/
                              Resolve
                                          No
                                                               Is data reasonable
                                                                  and accurate?

                                                                             Yes


                                                                 Distribute to Office
                                                                       Director
                                                                    For approval

                                  Investigate/
                                  Resolve        No
                                                                 Is data reasonable
                                                                    and accurate?
                                                                                    Yes
                                                                                                     Distribute




Performance Indicator Audit: Productivity (A-15-04-14073)                                                             C-3
                     Flowchart of SSI Aged Claims PPWY



           Control WYs                                          Workload
                                                                 Counts


          DCA Analyst
          Extract P/R                                         DDS, FDDS & OHA
           ODS data                                           Workload counts
                                                                                                        DCA Analyst
                                                                                                          Extract
                                                             Field Office,                               Workload
                                                             New SSAMIS                                   Counts
         Calculate Agency
     Control WYs by Component                                Workload counts


                                                              OEO, PSC, ODIO
                                                              Workload counts
             Is data               No
         Reasonable and
           Accurate?                                                              No                   Is data
                                                                                                   Reasonable and
                    Yes                                     Investigate/Resolve
                                                                                                     Accurate?

                                                                                                       Yes
        Approve and distribute
        to DCA analyst




       DCA analyst perform split
       by category and workload                     Feeder CAS
                                        To Feeder
                                                                                       To Feeder CAS
                                          CAS




                                                     A          B




Performance Indicator Audit: Productivity (A-15-04-14073)                                                             C-4
                                                            Is Data          No
          A                                                 Reasonable                           B
                                                            And Accurate?   To DCA Analyst
                                                                            For Resolution
      Feeder CAS
                                                                    Yes


                                                       Create PICA




                                             No
                                                       Is data reasonable
                                To DCA Analyst            and accurate?
                                For Resolution




                                                                  Yes


                                                      Upload to CAS                          D




                                                             Run CAS




                                                     Generate C215 Report




                                                                C




Performance Indicator Audit: Productivity (A-15-04-14073)                                            C-5
                                                                       No
                                               Is data reasonable                     D
         C
                                                and accurate?
                                                                     To DCA Analyst
                                                                     For Resolution
 Generate C215 Report
                                                         Yes



                                                C2-15A Report
                                                Released to
                                                Users




                                             C2-15A data for SSI
                                             Aged Claims provided
                                             for input to
                                             Performance and
                                             Accountability Report




Performance Indicator Audit: Productivity (A-15-04-14073)                                 C-6
Flowchart of DDS Cases PPWY

                                            DDS Inputs
                                         workload data into
                                               NDDSS




                                         National Disability
                                       Determinations Service
                                          System (NDDSS)




                                       Disability                 Personnel
                                      Operational                Information
                                      Data Store                inputted into
                                       (DIODS)                     DIODS




                                      FD-15 Report
                                    produced weekly
                                      from DIODS




                                     Staff Reviews
                                     weekly FD-15
                                   reports to identify
                                   anomalies so that
                                   obvious errors are
                                       corrected




                                         Year-end
                                   Cumulative FD-15
                                   report is then used
                                     to produce year
                                    end total for PI #
                                          14 and
                                      Accountability
                                          report




Performance Indicator Audit: Productivity (A-15-04-14073)                       C-7
                                                            Appendix D
Agency Comments




Performance Indicator Audit: Productivity (A-15-04-14073)
                                                SOCIAL SECURITY

MEMORANDUM                                                                       33296-24-1161


Date:      September 27, 2004                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: Productivity"
           (A-15-04-14073)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Productivity (A-15-04-14073)                                    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: PRODUCTIVITY"
(A-15-04-14073)


Thank you for the opportunity to review and comment on the draft report.

Our responses to the specific recommendations are provided below.

Recommendation 1

Improve documentation by maintaining documents that describe how the performance indicator
goals were established, documenting the policies and procedures used to prepare and disclose the
results of the performance indicators, and maintaining a complete audit trail for the results of the
performance indicators.

Response

We agree. We are currently determining the best approach for maintaining documentation
regarding how performance indicators and related goals are established as part of the audit trail.

Recommendation 2

Ensure that the performance indicator titles, definitions, and goals are explicit, complete, and
consistent.

Response

We agree. In preparation of the FY 2004 Performance and Accountability Report and the FY
2005/2006 Annual Performance Plan, the Office of the Chief Strategic Officer worked with
components to ensure performance titles, definitions, and goals were explicit, complete, and
consistent. We will continue to monitor this area.

Recommendation 3

Establish formal written documentation for the performance indicators that includes a complete
description and identification of the exact processes and computer programs used to obtain data
from the source system files for all 55 workloads.

Response

We agree. However, we do not have the budgeted systems resources to implement them at this
time.




Performance Indicator Audit: Productivity (A-15-04-14073)                                      D-2
Recommendation 4

Establish formal written documentation for the performance indicators that includes clear
identification of the exact system files and fields used to obtain source data for each workload.

Response

See response to Recommendation 3.

Recommendation 5

Establish formal written documentation for the performance indicators that includes a complete
description and identification of the computer programs and interim calculations used to
selectively combine, delete or alter original data extracted from source system files during each
stage of the data refinement process.

Response

See response to Recommendation 3.

Recommendation 6

Establish formal written documentation for the performance indicators that includes a
requirement to maintain an exact copy of the original source data extracted for each of the 55
workloads.

Response

We agree. However, we suggest for economy of time and efficiency of space to store
information, that exact copies only be kept for data that cannot be easily replicated once it has
been extracted. Further, we do not have the budgeted systems resources to implement at this
time.

Recommendation 7

Review on a yearly basis workloads included in the calculation to ensure they reflect SSA’s
priorities and actions.

Response

We agree. We will work with the sponsoring component to ensure this review occurs on a
regular basis.




Performance Indicator Audit: Productivity (A-15-04-14073)                                      D-3
Recommendation 8

Implement formal procedures that ensure that reviews of the FD-15 reports are performed in a
timely manner.

Response

We agree in part. The FD-15 reports are always reviewed routinely and in a timely manner as
soon as they are available each week. Nevertheless, we will formally document this process.

Recommendation 9

Ensure that the Forms 4514 are certified by DDS personnel with the appropriate level of
authority.

Response

We agree in part. The POMS instructions already require a signature on the SSA-4514. We will
ensure routine enforcement by monitoring 4514 for signatures and return unsigned forms for
correction.

Recommendation 10

Ensure that a formal log of errors and corrective actions taken is maintained for output product
errors relating to the generation of the FD-15 report, and errors found as part of the review by
SSA of the quarterly certification of hours expended by the DDS. The log should contain the
date, error, and corrective action taken in a detailed form.

Response

We agree. The Office of Disability and Income Security Programs will coordinate with the
Office of Systems to maintain a log of errors and corrective actions on the Disability Operational
Data Store (DIODS) web page, for errors relating to the generation of the FD-15 Report. The
Office of Disability Determinations will maintain a separate file log of errors and corrective
actions for errors detected as a part of the review by SSA of the quarterly certification of hours
expended by each DDS. A log of errors and corrective actions would enhance monitoring and
minimize errors in the calculation of this performance indicator. We will implement the
maintenance of the FD-15 error log, and will immediately begin maintaining our log on hours
certification reporting errors.

[SSA also provided technical comments which have been addressed in this report,
where appropriate.]




Performance Indicator Audit: Productivity (A-15-04-14073)                                    D-4
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
